OIG Audit Report GR-30-96-013

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with Union County, New Jersey
Audit Report GR-30-96-013
September 1996
Office of the Inspector General


Executive Summary


The Office  of the Inspector General (OIG), Audit Division, has completed an audit of the  Intergovernmental Service Agreement (IGA) between the United States  Marshals Service (USMS) and the County of Union, New Jersey (contractor). During the period of January 1, 1993 through  December 31, 1995 (Fiscal Years 1993, 1994, and 1995), the contractor billed  the USMS $6.4 million per year, which was comprised of 83,950 jail days at  $76.60 per day. The IGA was signed in  March 1990 and was in effect during the entire audit period. Additional audit scope, methodology, and  background information appears in APPENDIX II.
We reviewed the IGA between the  contractor and the USMS to provide detention space at the jail for federal  prisoners. We analyzed jail-day billings  to determine if the amounts claimed were accurate and that the day rate corresponded  to the rate as stated in the IGA. We  performed tests of selected FY 1993, 1994, and 1995 costs to determine if the  costs were allowable and were adequately supported.
Base of our review, we determined that:

The  contractor overbilled the USMS $1,598,408 in FY 1993; $1,475,002 in FY 1994;  and $1,150,955 in FY 1995.
As  a result of resorting to a fixed payment option in Modification 3 of the IGA,  the USMS spend $819,160 that it could have used for other purposes.
No  material deficiencies existed in the accuracy, completeness, and adequacy of  accounting documentation; administrative, management and financial internal  controls; and accuracy of reports.




 




Return to OIG Home Page